  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                  U.S. Census Bureau

   Respondent Data Safeguards in the
Decennial Response Integration System
                               (DRIS)



                       Final Report No. OAE-19888
                                    September 2010




                 Office of Audits and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230



September 24,2010

MEMORANDUM FOR:               Rebecca M. Blank
                              Under Secretary for Economic Affairs
                              U.S. Department of Commerce

                              Dr. Robert Groves
                              Director
                              U.S. Census Bureau       4 tJIf             ~

FROM:                         AllenCraw]ey          v~
                              Assistant Inspector General for Systems Acquisition
                                                                                 ~
                                and IT Security

SUBJE.CT:                     Respondent Data Safeguards in the Decennial Response
                                 Integration System (DRIS)
                              Final Report OAE- 19888

Attached please find the final report of our assessment of respondent data safeguards in the
Decennial Response Integration System (ORIS). This was the first 20 10 Decennial Census
system for which we evaluated information technology (IT) security controls. Our review of
other systems is ongoing and the results from that work will be included in our FY 20 I 0 FISMA
audit report and repol1 to OMB. We identified vulnerabilities in DRIS security controls that
required corrections in order to ensure the system adequately safeguarded respondent data.
However, we acknowledge that, even before the corrections, ORIS had security features that
significantly mitigated risk. In addition, we identified a weakness in the system's definitions for
secure configurations that suggests the need for increased management attention to future
contractor systems.

Census, in its response, indicated that all but one of the vulnerabilities we identified had been
remediated (its contractor began corrections after we briefed Census and the contractor on our
preliminary findings), and that ORJS completed data capture and telephone operations with no
reported security breaches. According to the bureau, it also intends to develop a strategy to
ensure that requirements for secure configurations are more clearly mandated for future
contractor systems. In this regard, please submit to us an action plan, or the documented strategy,
within 60 days of the date of this memorandum.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you have any questions or concerns about this report, please do not hesitate to
contact me at (202) 482-1855.
cc: 	   Simon Szykman, Chief Information Officer, Department of Commerce
        Thomas L. Mesenbourg, Jr., Deputy Director and Chief Operating Officer,
            U.S. Census Bureau
        Arnold A. Jackson, Associate Director for Decennial Census, U.S. Census Bureau
        Brian E. McGrath, Associate Director for Information Technology and Chief Information
           Officer, U.S. Census Bureau
        Tracy Wessler, DRIS Program Manager, U.S. Census Bureau
        Timothy P. Ruland, Chief, Information Technology Security Office, U.S. Census Bureau
        Jean McKenzie, Census audit liaison
                             Report In Brief
                                  U.S. Department of Commerce, Ofﬁce of Inspector General
                                                       September 2010

Why We Did This Review U.S. Census Bureau
As part of our oversight of the
2010 Decennial Census, we        Respondent Data Safeguards in the Decennial Response
evaluated whether required       Integration System (DRIS) (OAE-19888)
controls meant to serve as
safeguards over electronic re-
spondent data in the Decennial What We Found
Response Integration System
(DRIS) were effectively meet-
ing data security requirements. Overall we found vulnerabilities in DRIS security controls that should normally have
                                 been remediated; however, several factors existed that signiﬁcantly mitigated the risk of
                                 a security breach: the system was not accessible from the Internet, and user interfaces
                                 limited access to respondent data. We also identiﬁed a weakness in the system’s deﬁni-
Background                       tions for secure conﬁgurations that suggests the need for increased management atten-
                                 tion to future contractor systems. The table below describes these ﬁndings at a glance:
DRIS is a contractor-oper-
ated system, currently in the
process of being decommis-        Finding                                 Examples
sioned, that supported the 2010 Vulnerabilities existed in system • Malicious code could be introduced
Decennial Census by convert- components.                                    through removable media (e.g., USB
ing paper-based responses into                                              thumb drives)
electronic form and transmit-                                             • Default password
ting the data, encrypted, to                                              • Database users were granted ex-
Census for further processing.                                              cessive access
It also provided telephone                                                • Lack of logging of security-related
questionnaire assistance                                                    events
through interactive voice re-                                             • Some network components were
sponse and call center staff to                                             running prohibited services
help callers complete Census
                                  Conﬁguration settings were not          Checklists of secure settings for
forms. Further, it followed up
                                  adequately deﬁned and docu-             various technologies were incomplete
on coverage of respondents
                                  mented. (Department policy re-          or lacked an appropriate benchmark; for
who submitted incomplete
                                  quires this for hardening systems one class of servers, a checklist was not
information; operators then
                                  against cyber attacks.)                 deﬁned.
updated the response database.
A separate contractor sampled
response data to indepen-
dently verify the accuracy of
the conversion from scanned
paper forms to electronic data. What We Recommend
These operations have been
completed.
                                 We recommend that, for future contractor systems, the Census Bureau ensure that
                                 conﬁguration settings for IT products be deﬁned, documented, and implemented in ac-
DRIS was effectively separat-
                                 cordance with Department policy. We make no recommendation with respect to system
ed from the Internet; users had
                                 vulnerabilities because the system has concluded operations and is in the process of
limited access to respondent
                                 being decommissioned. Further, Census indicated, in response to our draft report, that
data. However, the system had
                                 its contractor had remediated all but one of the vulnerabilities (the remediation began
been certiﬁed and accredited
                                 shortly after our initial ﬁeldwork in March 2010.)
almost 2 years before it began
operating, raising the potential
for unidentiﬁed vulnerabilities
without rigorous, continuous
monitoring.
U.S. Department of Commerce                                                              Final Report OAE-19888 

Office of Inspector General                                                                      September 2010 




INTRODUCTION

As part of our oversight of the 2010 Decennial Census and our obligations under the Federal
Information Security Management Act of 2002 (FISMA), we evaluated the Decennial Response
Integration System’s (DRIS) safeguards for electronic respondent data. Our objective was to
determine whether required controls were effectively meeting security requirements so that
confidential respondent data were adequately protected. Our detailed scope and methodology are
included as Appendix I. DRIS operations have now concluded and the system is in the process of
being decommissioned.

DRIS is a contractor-operated 1 system that converted paper-based census questionnaire
responses into electronic form and transmitted the data to the Census Bureau for further
processing. DRIS also provided telephone questionnaire assistance in which an interactive voice
response application and call center staff provided assistance to callers in completing census
forms. The “telephony channel” also included a “coverage follow-up” operation in which call
center operators interviewed respondents who provided incomplete information on census forms;
the operators then updated the response database. In addition, DRIS had a “paper data quality”
function, in which a separate contractor independently sampled response data to determine the
accuracy of the conversion from scanned paper forms to electronic data.

DRIS transmitted encrypted respondent data to the Census Bureau. Key security features
included its architecture and application design, which effectively separated the system from the
Internet and limited access to respondent data to authorized users who typically received the data
one “case” at a time, through a controlled user interface.

Census certified and then accredited DRIS in March 2008, nearly 2 years prior to system
operations, which began in February 2010. This FISMA-required process identifies
vulnerabilities and leads to management’s acknowledgement and acceptance of the risk of
operating the system. The early accreditation, before the system was fully deployed, raised the
potential for unidentified vulnerabilities without a rigorous continuous monitoring program.

Under 13 U.S.C. § 9, Census must use confidential information for the statistical purposes for
which it is supplied, must not make any publication that would identify the data furnished by a
particular respondent, and must not permit unauthorized persons to examine individual reports.
In furtherance of these limitations, authorized persons must have a work-related need to know to
use the data. The oath taken by authorized persons to uphold the confidentiality of census
information is a lifetime obligation. Census has an unauthorized-browsing policy that prohibits
searching or looking through, for other than work-related purposes, protected information that
directly or indirectly identifies individual persons or businesses. The removal of confidential data
from the bureau in the form of memory sticks, CDs, or other electronic media is also prohibited.



1
    The DRIS contractor, Lockheed Martin, previously supported the paper data capture component during the 2000
    Decennial Census.
U.S. Department of Commerce                                                   Final Report OAE-19888 

Office of Inspector General                                                           September 2010 




SUMMARY

DRIS had security features in place that significantly mitigated risk, yet vulnerabilities remained
that required correction to ensure that DRIS adequately safeguarded respondent data. There were
a number of factors—in particular, that the system was not accessible from the Internet and user
interfaces limited access to respondent data—that significantly mitigated the risk of a security
breach. We identified a weakness in the system’s definitions for secure configurations that
suggests the need for increased management attention to future contractor systems. We
communicated to Census officials the security issues identified throughout our review; in many
instances, Census and the DRIS contractor said that they addressed these security issues. We did
not, however, independently validate their assertions.

The table below summarizes our findings with recommendations:

Finding                       Examples                               Recommendation
Vulnerabilities existed in    • Malicious code can be                (None.) In response to our
system components.               introduced through removable        draft report, Census asserted
                                 media (e.g., USB thumb drives)      that, with the exception of
                              • Default password not changed         excessive access granted to
                              • Database users granted               database users, these
                                 excessive access                    vulnerabilities have been
                              • Security-relevant events not         remediated; the system is in
                                 logged                              the process of being
                              • Some network components              incrementally
                                 running prohibited services         decommissioned.
Configuration settings        • Checklists of secure settings for    For future contractor systems,
were not adequately              various technologies were           configuration settings for IT
defined and documented.          incomplete or lacked an             products should be defined,
(Department policy               appropriate benchmark; for one      documented, and implemented
requires this for                class of servers, a checklist was   in accordance with
hardening systems                not defined.                        Department policy.
against cyber attacks.)




                                                 2

U.S. Department of Commerce                                                 Final Report OAE-19888 

Office of Inspector General                                                         September 2010 




FINDINGS AND RECOMMENDATIONS

Vulnerabilities in Key Technologies Needed to Be Addressed to Ensure That Respondent
Data Were Adequately Protected

While we identified vulnerabilities in DRIS controls, a number of factors, including its
separation from the Internet and users’ limited interface, compensated for those weaknesses and
reduced the likelihood of a data breach. We have since shared with Census all control assessment
findings, and Census and the DRIS contractor have indicated that most of the issues have been
corrected. In some instances, however, according to the contractor, the workload at the peak of
production was too great to risk implementing corrections that could have impacted system
performance. Based on our understanding of the system and operations, these particular
remaining vulnerabilities did not pose undue risk.


Vulnerabilities Existed in System Components

Vulnerabilities were evident in DRIS protections against malicious code that can be introduced
through removable media such as USB thumb drives. Windows®-based servers and workstations
in the system’s telephony channel and the paper data quality segment were not configured to
prevent removable media devices from automatically executing code stored on the devices. In
addition, none of the system’s Windows-based components had a Microsoft®-issued patch that
is required to effectively disable the ability of removable media to automatically execute code.
We successfully exploited this flaw in the DRIS laboratory environment, which was also not
patched, demonstrating the potential for malicious code to be introduced via removable media.

Another vulnerability existed with database management systems, including one that managed
the respondent database: a default password for a highly privileged account was not changed.
After we promptly notified Census of this finding, the bureau informed us that the default
password was stored in an unused repository and that database administrators logged in using a
separate mechanism and different password. Census therefore believed the finding was a “false
positive.” However, Department policy requires default account passwords to be changed; we
found that other default account passwords in the same repository had been changed previously.
Changing default passwords is a fundamental security practice, and the existence of a default
password does present the potential for misuse. Census told us that the DRIS contractor has since
changed the default password in question.

Database users were granted excessive privileges according to both an industry benchmark and
DRIS’s own checklist. According to Census officials and the DRIS contractor, they planned to
evaluate the necessity of modifying these settings in the DRIS databases. In response to other
database issues that we identified, the DRIS contractor did not intend to make modifications
because doing so may have affected the systems’ ability to process millions of transactions daily.
Based on our understanding of the system and operations, we believe leaving these
vulnerabilities uncorrected did not pose undue risk.


                                                3

U.S. Department of Commerce                                                         Final Report OAE-19888 

Office of Inspector General                                                                 September 2010 



Domain controllers that we sampled, which implemented security policy for much of DRIS,
were not auditing events that are identified in the system security plan as significant and relevant
to system security. According to the DRIS contractor, this was the result of conflicting policies
being applied to the domain controllers; the contractor said, however, that it would work to
resolve the issue. Likewise, scans revealed that workstations’ audit settings were not in
compliance with the Federal Desktop Core Configuration (FDCC). 2 A significant number of
noncompliant settings were discovered in components of the paper data quality function (three
workstations from our sample of eight components accounted for 56 percent of the
discrepancies).

Two other vulnerable settings in servers running Windows operating systems had the potential to
allow an attacker immediate access into a machine or allow highly-privileged access. The DRIS
contractor initially said that the settings were necessary for compatibility with legacy
applications, but later said that the software had since been updated and should no longer be
incompatible. More recently, the contractor told us that it had successfully tested more secure
settings in its lab environment and planned to implement the settings in production.

Routers and switches were running insecure services as defined by an industry benchmark and
DRIS’s own network design document. We shared our detailed findings with Census and the
DRIS contractor. In response, the contractor planned to modify the settings to comply with the
industry benchmark and update the DRIS network design document.

In general, firewall configurations were consistent with baseline rules captured in DRIS’s
configuration management system. We shared our detailed findings with Census and the DRIS
contractor; where there were discrepancies, the contractor planned to correct the running
configurations or update the baseline as necessary. Of the discrepancies, the most common was
one that would omit logging of unauthorized traffic attempting to pass through a firewall—
something that would have assisted in detecting malicious activity.


Configuration Settings Were Not Adequately Defined and Documented

Configuration settings of DRIS’s IT products, required to be at the most restrictive mode
consistent with operational requirements, were not defined and documented according to
Department policy. DRIS’s checklist for databases addressed only 3 of the 13 sections (74 of the
277 potential settings—27 percent) of the industry benchmark that the DRIS contractor said was
the basis for the checklist. Windows operating system settings were better defined than other IT
products in the system, but ambiguities existed. According to Census, Windows components,
including servers, were configured according to the FDCC. However, documented deviations
from it were not completed; many settings were marked “not configured–need more testing.”
And FDCC is intended for workstations, not servers. For routers and switches, a network design
document addressed a very small subset of benchmark settings (insecure services); in practice,

2
    Office of Management and Budget, Executive Office of the President, OMB Memorandum No. 08-22, Guidance
    on the Federal Desktop Core Configuration (FDCC) (2008). The FDCC is an OMB-mandated security
    configuration for Windows XP and Windows Vista operating systems.

                                                       4

U.S. Department of Commerce                                                                Final Report OAE-19888 

Office of Inspector General                                                                        September 2010 



the design document was not followed. Likewise, the DRIS contractor’s security configurations
document for servers running a UNIX®-based operating system did not constitute properly-
defined settings.

In general, Commerce policy requires that a secure benchmark (typically from industry) be used
as a starting point and that deviations from the benchmark then be documented to produce the
system’s tailored checklist of configuration settings for a given IT product. This provides
assurance that the system has been appropriately hardened and promotes unambiguous
assessment of component security.

Illustrating the issue, we found a file transfer protocol (FTP 3 ) server, which could have presented
a security risk, running on a UNIX-based server, yet the DRIS contractor told us that it should
not have been. However, the contractor’s security configurations document for its UNIX-based
systems did not prohibit or otherwise address FTP servers. If it had, this server would have been
in clear violation of the allowed settings and services, which Department policy requires be
defined. Implementing and maintaining secure configuration settings is one of the most effective
ways of negating threats. Adequately defining configuration settings has been an issue we have
raised in previous Census reviews.


Recommendation

We recommend that Census ensure that, for future contractor systems, configuration settings for
IT products be defined, documented, and implemented in accordance with Department policy.




3
    FTP is a communications protocol governing the transfer of files from one computer to another over a network.

                                                           5

U.S. Department of Commerce                                                Final Report OAE-19888 

Office of Inspector General                                                        September 2010 



                 Summary of Census Comments and OIG Response

In response to our draft report, Census did not dispute our findings and indicated agreement with
our recommendations, only one of which remains for the final report. The draft report
recommended that vulnerabilities that we identified be promptly remediated; the bureau asserted
that all but one of the vulnerabilities had been. Census’s response suggests that the remaining
vulnerability—excessive privileges granted to database users—is no longer a concern because
the system is now in the process of being incrementally decommissioned and database users no
longer exist. The bureau further stated that the “DRIS program conducted the 2010 Decennial
Census paper data capture and telephone operations with no reported security breaches.”

With respect to configuration settings, the bureau explained that these requirements were not
clearly mandated through contractual terms and that it will develop a strategy to ensure that
future contractor systems will be required to comply. Census also suggested an editorial change,
which we have incorporated into this final report. The full Census response is included as
Appendix II to this report.


OIG Response

We are pleased that Census and its contractor took steps to remediate the vulnerabilities we
identified and agree with the bureau’s position regarding the one remaining vulnerability. We
look forward to reviewing Census’s strategy to ensure that future contractor systems adhere to
requirements for secure configuration settings.




                                                6

U.S. Department of Commerce                                                 Final Report OAE-19888 

Office of Inspector General                                                         September 2010 



                              APPENDIX I: SCOPE AND METHODOLOGY

Decennial respondent data are the information supplied by individuals on Decennial Census
forms, whether mailed in or collected by Census employees. We chose to evaluate safeguards for
electronic respondent data because two of our top management challenges facing the Department
are the Decennial Census and IT security.

This report presents the results of our evaluation of the Decennial Response Integration System
(DRIS), which was the first system in Census’ decennial workflow to process, store, and transmit
electronic decennial respondent data. DRIS included three paper data capture centers, in
Baltimore, 4 Phoenix, and Jeffersonville, Indiana; a teletech center in Denver and call centers at
various locations; and an operational command center/program management office in Greenbelt,
Maryland.

We determined that this system included confidential respondent data based on interviews and
documentation obtained from Census. We then reviewed system documentation and interviewed
Census and DRIS contractor employees to determine how respondent data were stored,
processed, distributed, and protected. This information was then used in our third, most crucial
objective: determining whether required security controls were effectively meeting the security
requirements for the data.

We assessed a subset of FISMA- and Commerce-required controls from National Institute of
Standards and Technology (NIST) Special Publication 800-53, Revision 2, Recommended
Security Controls for Federal Information Systems: Access Control Policy and Procedures (AC­
1), Access Enforcement (AC-3), Information Flow Enforcement (AC-4), Remote Access (AC­
17), Auditable Events (AU-2), Configuration Settings (CM-6), Media Access (MP-2), and
Transmission Confidentiality (SC-9). We selected these controls for their relation to Title 13
confidentiality requirements and other important aspects of information security. We have been
required to report on the status of configuration settings in our annual FISMA report to the
Office of Management and Budget.

We visited the DRIS operational command center in Greenbelt, Maryland, to collect security-
related data, interview system personnel, and observe system security capabilities. Our
assessment included extracting, examining, and verifying system configurations; executing
scripts and manual checklists; vulnerability scanning; examining system logs; analyzing the
system security plan and related policies and procedures; and interviewing both Census and
DRIS contractor personnel.

We used the following criteria:

      •	 Federal Information Security Management Act of 2002 (FISMA), Pub. L. No. 107–347,
         Title III, §§ 301-302, 44 U.S.C. §§ 3541-3549, 40 U.S.C. § 11331



4
    Actually Essex, Maryland, a Baltimore suburb.

                                                    7

U.S. Department of Commerce                                             Final Report OAE-19888 

Office of Inspector General                                                     September 2010 



   •	 U.S. Department of Commerce, IT Security Program Policy, March 2009 and component
      Commerce Interim Technical Requirements (CITRs):
         o	 CITR-001: Federal Desktop Core Configuration (FDCC)
         o	 CITR-005: Removable Media Devices

   •	 NIST Federal Information Processing Standards (FIPS):
         o	 Publication 199, Standards for Security Categorization of Federal Information
            and Information Systems
         o	 Publication 200, Minimum Security Requirements for Federal Information and
            Information Systems

   •	 NIST Special Publications:
         o	 800-53, Revision 2, Recommended Security Controls for Federal Information
            Systems
         o	 800-53A, Guide for Assessing the Security Controls in Federal Information
            Systems
         o	 800-70, Security Configuration Checklists Program for IT Products
         o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as amended,
and the Quality Standards for Inspections (revised January 2005), issued by the President’s
Council on Integrity and Efficiency.




                                              8

U.S. Department of Commerce                                                                    Final Report OAE-19888
Office of Inspector General                                                                            September 2010


               APPENDIX II: COMMENTS FROM THE U.S. CENSUS BUREAU

                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Under Secretary for Economic Affairs
                                                               Washington. D.C. 20230




      MEMORANDUM FOR:                Allen Crawley
                                     Assistant Inspector General for Systems Acquisition
                                      and IT Security

      FROM:


      SUBJECT:                       Respondent Data Safeguards in the Decennial Response
                                     Integration System (DRIS) Draft Report No. OAE-198881August
                                     2010


      Below are the Office of the Inspector General's recommendations for the findings identified
      during the evaluation of the Respondent Data Safeguards in the Decennial Response Integration
      System (DRIS), Draft Report No. OAE-19888, and the agency responses.

      The DRIS system underwent an iterative design and development process. Although the systems
      were consciously designed within the NIST risk-based framework, this iterative approach
      sometimes affected the quality of the documentation. Census appreciates the feedback received
      in this report, and is pleased that the DRIS program conducted the 2010 Decennial Census paper
      data capture and telephone operations with no reported security breaches.


      Comments

      Re: Introduction, 5th paragraph. We recommend revising the first three sentences as set forth
      below. The revisions (a) place all three of the confidentiality limitations in the first sentence, (b)
      distinguish the work-related need to know policy requirement from the statutorily-based
      confidentiality limitations by placing this requirement the second sentence, and (c) restate the
      lifetime requirement in the third sentence.

         "Under 13 U.S.C. § 9, Census must use confidential information for the statistical
         purposes for which it is supplied, must not make any publication that would identify the
         data furnished by a particular respondent, and must not permit unauthorized persons to
         examine individual reports. In furtherance of these limitations, authorized persons must
         have a work-related need to know to use the data. The oath taken by authorized persons
         to uphold the confidentiality of census information is a lifetime obligation."


      Findings and Recommendations

      1. Vulnerabilities existed in system components.
                                                                                                       • •••
                                                                                                     rf7jECONOMICS
                                                                                                      AND STATISTICS
                                                                                                     ADMINISTRATION
Census Response: With the exception of the vulnerability of excessive privileges granted to the
database users, all other identified vulnerabilities have been remediated at this time. ORIS
processing for the 2010 Decennial Census has now been completed, and the system is in the process
of being incrementally decommissioned. At this time, the said database users no longer exist.

2.   Configuration settings were not adequately defined and documented.

Census Response: While the Census Bureau has IT security standards, policies, and
methodologies in place, the application of such standards, policies, and methodologies was not
clearly mandated through the contractual terms. Future proprietary systems developed for the
Census Bureau will be required to adhere to these standards, policies, and methodologies.
Census will develop a strategy to ensure they are implemented, specifically with respect to the
secure configuration policy.
